                                              OFFICE OF THE ASSISTANT SECRETARY

                                              FOR ADMINISTRATION AND MANAGEMENT




Office of Inspector General—Office of Audit




                                              THERE IS NO EVIDENCE
                                              CONTRACTING OFFICERS ARE
                                              CHECKING REQUIRED SOURCES
                                              BEFORE MAKING
                                              GSA SCHEDULE PROCUREMENTS




                                                                         Date Issued: September 15, 2006
                                                                         Report Number: 05-06-004-07-001
U.S. Department of Labor
Office of Inspector General                            September 2006
Office of Audit
                                                       There Is No Evidence Contracting Officers
                                                       Are Checking Required Sources Before
BRIEFLY…                                               Making GSA Schedule Procurements

Highlights of Report Number: 05-06-004-07-001, to
the Assistant Secretary for Administration and         WHAT OIG FOUND
Management.                                            We found for the most part that Contracting Officers
                                                       were procuring supplies and services through GSA
WHY READ THE REPORT                                    Schedules according to the prescribed rules and
Nineteen agencies in DOL periodically purchase         regulations. However, we found no evidence that
goods and services to accomplish their missions. In    DOL Contracting Officers are checking required
Fiscal Year (FY) 2005, DOL agencies procured an        sources before making GSA Schedule
estimated $1.7 billion in supplies and services        procurements.
through over 8,300 separate actions. Of these, over
2,500 represent supplies and services procured         The FAR has two requirements before agencies
through GSA Schedules, at a cost of approximately      procure supplies and services using GSA
$166 million.                                          Schedules. First, if applicable, they must check
                                                       existing government inventories of excess personal
Under the GSA Schedules Program outlined in            property. For all other items and personal property
Federal Acquisition Regulation (FAR) Part 8, GSA       not found during the review of existing inventories,
establishes long-term governmentwide contracts         they must give first consideration to the nonprofit
with commercial firms to provide access to over 6.8    agencies on the Procurement List provided by the
million commercial supplies and services.              Committee for Purchase from People Who Are Blind
Government agencies can order directly from GSA        or Severely Disabled. We found no evidence that
Schedule contractors or through the “GSA               DOL Contracting Officers are checking these
Advantage” online shopping and ordering system.        required sources.
The advantages of using GSA Schedules are
volume discount pricing, shorter lead times, lower     WHAT OIG RECOMMENDED
administrative costs, and reduced inventories.         We recommended that the Chief Acquisition Officer:
WHY OIG DID THE AUDIT                                      •   Direct all DOL Contracting Officers to
Our audit objective was to determine if DOL                    comply with the FAR and the DOL
procured supplies and services through the GSA                 Acquisition Regulation (DOLAR).
Schedules Program in accordance with prescribed            •   Amend Form DL 1-2216, Simplified
rules and regulations.                                         Acquisition Documentation Checklist.
                                                           •   Require all DOL Contracting Officers to use
READ THE FULL REPORT                                           Form DL 1-2216 and include the certified
To view the report, including the scope,                       form in the contract file.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2006/05-06-   OASAM’s Deputy Assistant Secretary for Operations
004-07-001.pdf.                                        (the Senior Procurement Executive) responded that
                                                       the agency concurs and will implement the
                                                       recommendations during the First Quarter of
                                                       FY 2007. Based on the response, we consider the
                                                       recommendations resolved.
                                                                                   There Is No Evidence
                                                    Contracting Officers Are Checking Required Sources
                                                            Before Making GSA Schedule Procurements




Table of Contents
                                                                                                             PAGE

EXECUTIVE SUMMARY ........................................................................................... 3


ASSISTANT INSPECTOR GENERAL’S REPORT ................................................... 7

  There Is No Evidence Contracting Officers Are Checking Required Sources
  Before Making GSA Schedule Procurements..................................................... 8

APPENDICES.......................................................................................................... 13
  A. Background..................................................................................................... 15

  B. Objective, Scope, Methodology, and Criteria............................................... 17

  C. Acronyms and Abbreviations........................................................................ 19

  D. Agency Response........................................................................................... 21




U.S. Department of Labor—Office of Inspector General                                                                 1
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                    2
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




Executive Summary
We initiated an audit to determine if the Department of Labor (DOL) procured
supplies and services through the General Services Administration (GSA) Schedules
Program in accordance with prescribed rules and regulations.

Under the GSA Schedules Program, GSA establishes long-term governmentwide
contracts with commercial firms to provide access to over 6.8 million commercial
supplies and services. Government agencies can order directly from GSA Schedule
contractors or through the “GSA Advantage” online shopping and ordering system.
The advantages of using GSA Schedules are volume discount pricing, shorter lead
times, lower administrative costs, and reduced inventories.

We selected a statistical sample of GSA Schedule procurements in the following
DOL agencies with delegated procurement authority: Office of the Assistant
Secretary for Administration and Management (OASAM); Employment and Training
Administration (ETA); Bureau of Labor Statistics (BLS); and Mine Safety and Health
Administration (MSHA). Our audit period was April 1, 2004, through
March 31, 2005, except as noted.


Results

We found for the most part that Contracting Officers were procuring supplies and
services through GSA Schedules according to the prescribed rules and regulations.
However, we found no evidence that DOL Contracting Officers are checking
required sources before making GSA Schedule procurements.

The Federal Acquisition Regulation (FAR) has two requirements before agencies
procure supplies and services using GSA Schedules. First, if applicable, they must
check existing government inventories of excess personal property. For all other
items and personal property not found during the review of existing inventories, they
must give first consideration to the nonprofit agencies on the Procurement List
provided by the Committee for Purchase from People Who Are Blind or Severely
Disabled. We found no evidence that DOL Contracting Officers are checking these
required sources.

Further, Department of Labor Acquisition Regulations (DOLAR) at 48 CFR 2953.101
provides a Simplified Acquisition Documentation Checklist (DL 1-2216, effective
October 2003) that Contracting Officers must complete and include in the contract
file with their certifications. One of the items on the Checklist is that “required
sources of supplies/services, including excess supplies, were reviewed prior to the

U.S. Department of Labor—Office of Inspector General                                    3
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


selection of this vendor.” In OASAM and BLS, we found the Checklist in the contract
files, but the box indicating “required sources of supplies/services, including excess
supplies, were reviewed prior to the selection of this vendor” was not checked. The
instructions on the Checklist indicate that the user should leave a box blank if not
applicable. As a result, we were unable to determine if the Contracting Officers were
checking these required sources when applicable. ETA and MSHA used an
alternate form and not the Checklist. Their form had no indication that “required
sources of supplies/services, including excess supplies, were reviewed prior to the
selection of this vendor.”

Failure to check excess inventories and required sources could result in wasted DOL
funds or contribute to the high unemployment rate of people who are blind or
severely disabled.

Recommendations

We recommend that the Chief Acquisition Officer:

   1. Direct all DOL Contracting Officers to comply with the FAR and DOLAR by a)
      first checking existing government inventories, and b) then checking the
      Procurement List provided by the Committee for Purchase from People Who
      Are Blind or Severely Disabled.
   2. Amend Form DL 1-2216 to allow Contracting Officers to indicate whether
      checking required sources is applicable to the procurement type and, if
      applicable, whether they checked required sources before procuring supplies
      and services using GSA Schedules. The form should also provide space to
      annotate the reason why checking required sources is not applicable.
   3. Require all DOL Contracting Officers to use Form DL 1-2216 and include the
      certified form in the contract file.


Agency Response

OASAM’s Deputy Assistant Secretary for Operations (the Senior Procurement
Executive) provided a written response on September 1, 2006. The agency concurs
with the OIG recommendations and is currently taking steps to:

   1. Revise Form DL 1-2216;
   2. Require all DOL Contracting Officers to use the revised Form DL 1-2216; and
   3. Direct all DOL Contracting Officers to comply with the FAR and DOLAR.

These actions are expected to be completed during the First Quarter of FY 2007.

The Deputy Assistant Secretary’s response is included in its entirety as Appendix D.

U.S. Department of Labor—Office of Inspector General                                    4
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


OIG Conclusion

Based on the information contained in the Deputy Assistant Secretary’s written
response to the draft report, we consider all recommendations resolved but open
pending receipt of documentation that the planned actions have been implemented.




U.S. Department of Labor—Office of Inspector General                                    5
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                    6
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


U.S. Department of Labor                          Office of Inspector General
                                               Washington, DC 20210




                        Assistant Inspector General’s Report


Patrick Pizzella
Assistant Secretary
 for Administration and Management

We initiated an audit to determine if the Department of Labor (DOL) procured
supplies and services through the General Services Administration (GSA) Schedules
Program in accordance with prescribed rules and regulations.

Under the GSA Schedules Program, GSA establishes long-term governmentwide
contracts with commercial firms to provide access to over 6.8 million commercial
supplies and services. Government agencies can order directly from GSA Schedule
contractors or through the “GSA Advantage” online shopping and ordering system.
The advantages of using GSA Schedules are volume discount pricing, shorter lead
times, lower administrative costs, and reduced inventories. See Appendix A for a
more detailed discussion of the GSA Schedules Program.

We selected a statistical sample of GSA Schedule procurements in the following
DOL agencies with delegated procurement authority: Office of the Assistant
Secretary for Administration and Management (OASAM); Employment and Training
Administration (ETA); Bureau of Labor Statistics (BLS); and Mine Safety and Health
Administration (MSHA). Our audit period was April 1, 2004, through
March 31, 2005, except as noted. See Appendix B for a more detailed discussion of
our objective, scope, and methodology.

We found for the most part that DOL agencies were procuring supplies and services
through GSA Schedules according to the prescribed rules and regulations.
However, we found no evidence DOL Contracting Officers are checking required
sources before making GSA Schedule procurements.




U.S. Department of Labor—Office of Inspector General                                    7
Report Number: 05-06-004-07-001
                                                                               There Is No Evidence
                                                Contracting Officers Are Checking Required Sources
                                                        Before Making GSA Schedule Procurements


RESULTS, FINDING, AND RECOMMENDATION

Objective – Is DOL Properly Procuring Supplies and Services Through GSA
Schedules?

Results

With the exception of the finding discussed below, Contracting Officers in DOL
properly procured supplies and services under GSA Schedules. Contracting
Officers routinely reviewed the catalogs/pricelists from at least three Schedule
vendors, and the factors for determining best value were included in the
procurement files. For transactions that were over the maximum order threshold1,
the Contracting Officers sought price reductions. When ordering services at hourly
rates, Statements of Work contained all required information. In addition,
transactions were properly authorized, approved, and charged to the correct
appropriation.

Finding – There is No Evidence Contracting Officers Are Checking Required
Sources Before Making GSA Schedule Procurements

The Federal Acquisition Regulation (FAR) has two requirements before agencies
procure supplies and services using GSA Schedules. First, if applicable, they must
check existing government inventories of excess personal property. For all other
items and personal property not found during the review of existing inventories, they
must give first consideration to the nonprofit agencies on the Procurement List
provided by the Committee for Purchase from People Who Are Blind or Severely
Disabled. We found no evidence that DOL Contracting Officers are checking these
required sources. This omission could result in wasted DOL funds or contribute to
the high unemployment rate of people who are blind or severely disabled.

During our audit of 146 transactions for the period April 1, 2004, through
March 31, 2005, we found no evidence that DOL Contracting Officers first checked
existing government inventories or the Procurement List provided by the Committee
for Purchase from People Who Are Blind or Severely Disabled. We found this to be
the case with all sampled transactions at the following DOL agencies that we visited:
OASAM; ETA; BLS; and MSHA.

We also found at OASAM that:

        •    4 out of 35 files selected for testing in the National Office could not be
             located;

1
 The dollar value of the maximum order threshold varies depending on the type of supplies and services. In
our audit, the maximum order threshold ranged from $250,000 to $1 million.

U.S. Department of Labor—Office of Inspector General                                                         8
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


       •   Contracting Officers were not reviewing the catalogs/pricelists from at
           least three Schedule vendors; and
       •   files often lacked the required documentation (i.e., indication of contracts
           considered, circumstances and rationale for restricting consideration, and
           additional documentation required for Statements of Work).

In discussing these preliminary findings with OASAM officials, they acknowledged
deficiencies in their GSA Schedule procurements during our original audit period, but
asserted that corrective actions had subsequently been taken. In order to affirm
whether OASAM had implemented corrective action, we randomly selected and
tested 30 additional transactions during the period April 1, 2005, through
October 31, 2005. In our testing of these 30 additional files, OASAM located all the
files; we found that Contracting Officers were reviewing the catalogs/pricelists of at
least three Schedule vendors; and we observed all the required documentation.
Because these issues were corrected in the subsequent period, we are not making
any recommendations. However, we still found no evidence Contracting Officers
were checking required sources before making GSA Schedule procurements.

FAR 8.102 states: “. . . agencies must use excess personal property as the first
source of supply for agency and cost-reimbursement contractor requirements.”

FAR 8.704(a) implements the Javits-Wagner-O’Day Act (JWOD) by requiring that
agencies purchase supplies or services from nonprofit agencies on the Procurement
List provided by the Committee for Purchase from People Who Are Blind or Severely
Disabled, if the supplies or services are available within the agency’s needed time
period. The JWOD program addresses the 70 percent unemployment rate of the
blind or severely disabled through orchestrating government purchases of supplies
and services to the nonprofit agencies that employ them.

Further, Department of Labor Acquisition Regulations (DOLAR) at 48 CFR 2953.101
provides a Simplified Acquisition Documentation Checklist (DL 1-2216, effective
October 2003) that Contracting Officers must complete and include in the contract
file with their certifications. One of the items on the Checklist is that “required
sources of supplies/services, including excess supplies, were reviewed prior to the
selection of this vendor.” This Checklist appears in the DOLAR revision published in
the Federal Register on April 27, 2004, effective May 27, 2004.

Contracting files of all four agencies – OASAM, ETA, BLS, and MSHA – lacked
evidence that Contracting Officers first checked existing government inventories or
the Procurement List provided by the Committee for Purchase from People Who Are
Blind or Severely Disabled. In OASAM and BLS, we found the Checklist in the
contract files, but the box indicating “required sources of supplies/services, including
excess supplies, were reviewed prior to the selection of this vendor” was not
checked. The instructions on the Checklist indicate that the user should leave a box
blank if not applicable. As a result, we were unable to determine if the Contracting

U.S. Department of Labor—Office of Inspector General                                      9
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


Officers determined this requirement was not applicable or did not check these
required sources when applicable. ETA and MSHA used an alternate form and not
the required Checklist. Their forms had no indication that “required sources of
supplies/services, including excess supplies, were reviewed prior to the selection of
this vendor.”

The Director of OASAM’s Office of Procurement Services (OPS) stated that the
checking of required sources is performed by agency personnel before the
procurement request is forwarded to the Contracting Officer. However, the DOLAR
criteria cited above indicates that this is a Contracting Officer responsibility.

It is important that Contracting Officers perform this step as part of the procurement
process to save DOL the cost of the purchase if existing inventories will suffice, and
assist agencies for the blind or severely disabled as they address high
unemployment.

Recommendations

We recommend that the Chief Acquisition Officer:

   1. Direct all DOL Contracting Officers to comply with the FAR and DOLAR by a)
      first checking existing government inventories, and b) then checking the
      Procurement List provided by the Committee for Purchase from People Who
      Are Blind or Severely Disabled.
   2. Amend Form DL 1-2216 to allow Contracting Officers to indicate whether
      checking required sources is applicable to the procurement type and, if
      applicable, whether they checked required sources before procuring supplies
      and services using GSA Schedules. The form should also provide space to
      annotate the reason why checking required sources is not applicable.
   3. Require all DOL Contracting Officers to use Form DL 1-2216 and include the
      certified form in the contract file.

Agency Response

OASAM’s Deputy Assistant Secretary for Operations (the Senior Procurement
Executive) provided a written response on September 1, 2006. The agency concurs
with the OIG recommendations and is currently taking steps to:

   1. Revise Form DL 1-2216;
   2. Require all DOL Contracting Officers to use the revised Form DL 1-2216; and
   3. Direct all DOL Contracting Officers to comply with the FAR and DOLAR.

These actions are expected to be completed during the First Quarter of FY 2007.



U.S. Department of Labor—Office of Inspector General                                   10
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


OIG Conclusion

Based on the information contained in the Deputy Assistant Secretary’s written
response to the draft report, we consider all recommendations resolved but open
pending receipt of documentation that the planned actions have been implemented.




Elliot P. Lewis
January 17, 2006




U.S. Department of Labor—Office of Inspector General                                   11
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   12
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




Appendices




U.S. Department of Labor—Office of Inspector General                                   13
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   14
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


                                                                           APPENDIX A
BACKGROUND


In FY 2005, DOL agencies procured an estimated $1.7 billion in supplies and
services through more than 8,300 separate actions. Of these, over 2,500 represent
supplies and services procured through GSA Schedules, at a cost of approximately
$166 million.

Under the GSA Schedules Program, GSA establishes long-term governmentwide
contracts with commercial firms to provide access to over 6.8 million commercial
supplies and services. Government agencies can order directly from GSA Schedule
contractors or through the “GSA Advantage” online shopping and ordering system.

GSA Schedules offer agencies direct delivery of millions of state-of-the-art, high-
quality commercial supplies and services at volume discount pricing. GSA
Schedules also offer the potential benefits of shorter lead times, lower administrative
costs, and reduced inventories.

When using the GSA Schedules Program outlined in FAR 8.4, agencies have the
opportunity to meet small business goals, while promoting compliance with various
environmental and socioeconomic laws and regulations. By placing an order against
a GSA Schedule contract, the agency has concluded that the order represents the
best value and results in the lowest overall cost alternative to meet the government’s
needs. Such orders comply with the requirements for full and open competition.
Agencies are not allowed to seek competition outside of GSA Schedules or
synopsize the requirement. Although GSA has already negotiated fair and
reasonable pricing, agencies may seek additional discounts before placing an order.

The DOLAR implements and supplements the FAR with additional provisions, as
necessary.

The Department of Labor Manual Series (DLMS) 2-830, Procurement Management
Program, describes the responsibilities of procurement officials and designates
OASAM’s Deputy Assistant Secretary for Operations as DOL’s Senior Procurement
Executive. The DLMS also designates OASAM’s Assistant Secretary as the
Department’s Chief Acquisition Officer. In addition, DLMS 2-830 delegates
procurement authority to the following DOL Agencies: MSHA, ETA, Office of
Inspector General (OIG), BLS, and OASAM’s OPS.




U.S. Department of Labor—Office of Inspector General                                   15
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   16
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


                                                                           APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA



Objective
Our audit objective was to determine if DOL procured supplies and services through
the GSA Schedules Program in accordance with prescribed rules and regulations.

Scope

We selected a statistical sample of 146 procurement transactions from a universe of
2,767 transactions for the period April 1, 2004, through March 31, 2005. Because
OASAM had multiple locations, we first randomly selected the locations. We
selected our samples and performed our audit at the following DOL offices:

   Office of the Assistant Secretary for Administration and Management
       (OASAM), Office of Procurement Services (OPS)
       OASAM New York Regional Office
       OASAM Philadelphia Regional Office
       OASAM Dallas Regional Office
       Employment and Training Administration (ETA)
       Bureau of Labor Statistics (BLS)
       Mine Safety and Health Administration (MSHA) Headquarters
       MSHA Academy in Beckley, WV

In order to affirm whether OASAM had implemented corrective action, we performed
additional audit testing at OPS and the OASAM Philadelphia Regional Office. OPS,
in Washington, DC, was selected because it awarded the largest number of GSA
Schedule procurements. Philadelphia was selected because of its close proximity to
OPS. We selected a random sample of 15 transactions at each location (for a total
of 30) from a universe of 919 transactions for the period April 1, 2005, through
October 31, 2005.

We did not audit GSA Schedule procurement transactions in the OIG because of our
lack of independence, as required by the Government Auditing Standards.

Methodology

Our fieldwork began May 6, 2005, and ended January 17, 2006. We interviewed
DOL Procurement Officials in OASAM, ETA, BLS, and MSHA to obtain an
understanding of DOL’s GSA Schedule procurement procedures. We tested GSA
Schedule procurement transactions for evidence of the following requirements
outlined in FAR 8.1, FAR 8.4, and FAR 8.7:

U.S. Department of Labor—Office of Inspector General                                   17
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


       •   Checking existing inventories of excess personal property;
       •   Documenting factors used for determining best value;
       •   Reviewing the catalogs or pricelists of at least three Schedule vendors;
       •   Documenting the vendors considered; a description of the supply or
           service; the amount paid; and the rationale for restricting consideration, if
           applicable;
       •   Seeking price reductions for transactions over the maximum order
           threshold; and
       •   Documenting that Statements of Work contained the information required
           when ordering services at hourly rates.

To meet our objective, we reviewed management controls over relevant activities.
Our management controls work included obtaining and reviewing policies and
procedures, interviewing key personnel, and reviewing selected transactions to
observe the controls in place. Our testing of management controls focused only on
the controls related to our audit objective and was not intended to form an opinion on
the adequacy of overall management controls, and we do not render such an
opinion. Weaknesses noted in our testing are discussed in Objective 1 of this report.

Our testing determined DOL’s compliance with Title 48 CFR 2908.4,
Title 48 CFR 2953.101, and FAR 8.1, FAR 8.4, and FAR 8.7. This testing was not
intended to form an opinion on compliance with laws and regulations as a whole,
and we do not render such an opinion.

We conducted our audit in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States, and we performed such
tests as we considered necessary to satisfy our audit objective.

Criteria

We used the following criteria to perform this audit:

       Department of Labor Acquisition Regulations (DOLAR):
       48 CFR Subpart 2908.4 – Using Schedules
       48 CFR Subpart 2953.101 – Simplified Acquisition Documentation Checklist

   Federal Acquisition Regulation (FAR):
      Subpart 8.1 – Excess Personal Property
      Subpart 8.4 – Federal Supply Schedules
      Subpart 8.7 – Acquisition from Nonprofit Agencies Employing People Who
            Are Blind or Severely Disabled

   Department of Labor Manual Series (DLMS) 2-830 – Procurement Management
   Program

U.S. Department of Labor—Office of Inspector General                                   18
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


                                                                           APPENDIX C
ACRONYMS AND ABBREVIATIONS


BLS           Bureau of Labor Statistics
CFR           Code of Federal Regulations
DLMS          Department of Labor Manual Series
DOL           Department of Labor
DOLAR         Department of Labor Acquisition Regulations
ETA           Employment and Training Administration
FAR           Federal Acquisition Regulation
GSA           General Services Administration
JWOD          Javits-Wagner-O’Day Act
MSHA          Mine Safety and Health Administration
OASAM         Office of the Assistant Secretary for Administration and Management
OIG           Office of Inspector General
OPS           Office of Procurement Services




U.S. Department of Labor—Office of Inspector General                                   19
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                   20
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements


                                                                           APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                   21
Report Number: 05-06-004-07-001
                                                                      There Is No Evidence
                                       Contracting Officers Are Checking Required Sources
                                               Before Making GSA Schedule Procurements




U.S. Department of Labor—Office of Inspector General                                   22
Report Number: 05-06-004-07-001
